                        Peace Corps
                        Office of Inspector General




King Letsie III of Lesotho Congratulates Volunteer Terry Ellard        Map of Lesotho, Source: state.gov
    at the September 2011 Volunteer Swearing-in Cermony




                                                     Flag of Lesotho



                                         Final Audit Report:
                                         Peace Corps/Lesotho
                                             IG-12-05-A
                                                                                            June 2012
                                     EXECUTIVE SUMMARY
The Office of Inspector General (OIG) conducted an audit of Peace Corps/Lesotho (hereafter
referred to as “the post”) from October 4, 2011 to October 20, 2011. At the time of the audit, the
post had three U.S. Direct Hires, three foreign service nationals, two third-country national
contractors, and 18 personal services contractors. The post had a fiscal year (FY) 2011 budget of
approximately $1.6 million, supporting 62 Volunteers. 1

We found that the post’s financial and administrative operations required improvement in a
number of areas and did not fully comply with agency policies. Specifically:

    ·    The post did not properly secure the medical supply room exposing its contents to risks
         associated with fraud, waste and abuse. The post had not implemented the necessary
         processes to record and track medical supplies, resulting in incomplete and inaccurate
         medical supply inventories.

    ·    The post lacked an adequate control over Value Added Tax (VAT) refunds to ensure that
         all allowable VAT refunds were identified, claimed and collected timely. Further, the
         post did not pursue eliminating the VAT at point of sale. We identified $64,670 for
         potential VAT that went unclaimed.

    ·    Documentation showed that several staff members were using Peace Corps telephones
         and cell phones excessively to make personal calls. The personal calls impose additional
         fees charged to the Peace Corps and are considered an administrative burden to track and
         bill individual users.

    ·    The post misclassified $38,471 with incorrect object class codes.

    ·    Finally, the post lacked adequate internal control over the imprest fund management and
         property management.

Before issuing the preliminary report, we provided management with a draft of our findings and
they began remediating our findings. In response to the preliminary report management
concurred with all 22 recommendations. As a result of timely corrective action, we closed the
20 recommendations. The remaining two recommendations remain open pending copies of the
documents described in Appendices C and D.




1
 This amount does not include the salaries, benefits, and other related expenses of U.S Direct Hires assigned to post
and other costs the agency has determined should be centrally-budgeted.


Final Audit Report: Peace Corps/Lesotho                                                                             i
                                                       TABLE OF CONTENTS

E XECUTIVE SUMMARY .................................................................................................................... i

BACKGROUND ..................................................................................................................................1

AUDIT R ESULTS ...............................................................................................................................1
            BILLINGS AND COLLECTIONS ......................................................................................................................... 1

            MEDICAL SUPPLIES ........................................................................................................................................ 4

            LEASES ........................................................................................................................................................... 6

            VALUE ADDED TAX ....................................................................................................................................... 8

            PROPERTY MANAGEMENT ............................................................................................................................ 10

            IMPREST FUNDS MANAGEMENT ................................................................................................................... 11

            FISCAL CODING MISCLASSIFICATION ........................................................................................................... 12

            GRANT MANAGEMENT ................................................................................................................................. 13


O THER AREAS OF C ONCERN .........................................................................................................14
            COMMUNICATION BETWEEN THE POST AND HEADQUARTERS...................................................................... 14


Q UESTIONED C OSTS AND F UNDS TO BE P UT TO BETTER USE .....................................................15

L IST OF R ECOMMENDATIONS .......................................................................................................16

APPENDIX A: O BJ ECTIVE , SCOPE , AND M ETHODOLOGY.............................................................18

APPENDIX B: L IST OF ACRONYMS ................................................................................................19

APPENDIX C: M ANAGEMENT ’S R ESPONSE TO THE P RELIMINARY R EPORT ...............................20

APPENDIX D: OIG C OMMENTS.....................................................................................................30

APPENDIX E: AUDIT C OMPLETION AND OIG C ONTACT .............................................................31
                                                BACKGROUND
OIG conducted the audit of the post October 4 – 20, 2011. We previously performed an audit
February 21 – March 8, 2005 and issued our report in September 2005 (IG-05-09-0A).

The first group of Volunteers arrived in Lesotho in 1967, one year after the country gained
independence from Great Britain. Approximately 2,100 Volunteers have served in Lesotho since
it was first established. In September 1998, the Peace Corps temporarily evacuated all Lesotho
Volunteers to South Africa because of civil unrest and prolonged protests against the outcome of
parliamentary elections. As a result, one-third of the 74 Volunteers serving at that time opted to
go home. In early November 1998, 49 Volunteers returned to Lesotho.

At the time of our audit, 62 Volunteers, including one Peace Corps Response Volunteer, were
working in the education and community health and economic development program areas. In
FY 2011, the post’s budget was approximately $1.6 million.2

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and in compliance with Peace Corps
policies and federal regulations during the period under audit. Appendix A provides a full
description of our audit objective, scope, and methodology.



                                              AUDIT RESULTS
BILLINGS AND COLLECTIONS

The post had not established policies limiting the personal use of telephones and cell phones.

MS 547.4.2 Use of Government Technology Services and Equipment states:

           Use of government technology services and equipment, including access to the Internet, is for official use
           by authorized personnel. Limited personal use (using government equipment for purposes other than
           accomplishing official or otherwise authorized activity) is allowed as provided in this Manual
           Section. However, personal use is a privilege and not a right, and may be revoked or limited at any time at
           the discretion of an employee’s supervisor or the Chief Information Officer. Personal use is subject to the
           following rules.

               (a) Employee personal use of government equipment must not adversely affect the employee’s
                    performance; must be of reasonable duration and frequency; and involve activities that cannot
                    reasonably be done at another time.

The post issued approximately 990 bills of collections (BOCs) for the personal use of agency
telephones from July 2007 to December 2011. Our review of the phone charges from October 2010
through August 2011 showed staff using their Peace Corps phones for mostly personal use. For

2
    The post’s budget does not include the salaries and benefits of U.S. Direct Hires.


Final Audit Report: Peace Corps/Lesotho                                                                                  1
example, 81 percent of the phone calls made by seven staff members and 52 percent of the charges
made by another nine staff members were identified to be of personal nature. The excessive use of
Peace Corps phones wastes valuable agency resources and results in agency work being neglected
and delayed as post employees spend work hours on personal matters. It also negatively impacts the
post’s operations because administrative staff, as well as the director of management and operations
(DMO) and the country director (CD), must spend additional time analyzing, identifying, billing and
collecting for personal use of telephones.

The post did not maintain effective controls over BOCs to ensure timely and complete receipt of
payments.

According to the Overseas Financial Management Handbook (OFMH) chapter 7, “Payment is
due within 30 days of receipt of the billing document (issued by the Billing Officer).”

During our visit, the post had 76, 841 Lesotho Loti, approximately $9,730 U.S. Dollar Equivalent
(USDE), in outstanding BOCs, some were outstanding for more than a year. See Table 2 for details
on the outstanding BOCs. We also determined that the post permitted staff to pay the BOCs in
installment payments by creating three BOCs for each employee’s phone charges. The country
director stated that the open BOCs were the result of erratic billing from the cell phone provider. MS
777 states, “Claims should be collected in full in one lump sum whenever this is possible.”

               Table 2.Outstanding Personal Phone Charges as of October 7, 2011
                                           Amount in
                      Billing Date          USDE*            Period of Service
                      08/10/2010                   $ 783    Feb 2010 – May 2010
                      03/10/2011                    2,362   Oct 2010 – Jan 2011
                      03/22/2011                      448   Oct 2010 – Jan 2011
                      07/26/2011                    1,418   Oct 2010 - Mar 2011
                      09/07/2011                      203   May 2011 – Jul 2011
                      10/05/2011                    3,661   May 2011 – Aug 2011
                      10/06/2011                      855   May 2011 – Aug 2011
                    *USDE=U.S. Dollar Equivalent

The numerous charges for personal phone calls contributed to a backlog of BOCs. Processing BOCs
in a timely manner is necessary to ensure that government funds can be put to better use and to
prevent staff from misusing government resources. OFMH chapter seven expresses the need for
greater control over billings and collections. It states, “Billings and collections is one of the more
vulnerable areas of Post management and it is essential that Post establish checks and balances to
provide for sound funds control.”

        We recommend:

        1. That the country director establish and enforce the “limited personal use” policy for
           all employees in compliance with Peace Corps Manual section 547.

        2. That the collection officer initiate collection for all past due bills of collection and
           send routine reminders for outstanding amounts.


Final Audit Report: Peace Corps/Lesotho                                                               2
        3. That the country director discontinue the practice of issuing multiple bills of
           collection to staff for the purpose of accepting installment payments and
           communicate this to staff through a memorandum or updated standard operating
           procedure.

The post did not ensure proper separation of duties over billing and collection functions.

OFMH 13 states that “Only a duly designated and authorized Principal Class B Cashier may
operate an imprest fund and is personally accountable for the imprest fund.”
The Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1) states:

        Key duties and responsibilities need to be divided or segregated among different people to reduce the risk
        of error or fraud. This should include separating the responsibilities for authorizing transactions, processing
        and recording them, reviewing the transactions, and handling any related assets. No individual should
        control all key aspects of a transaction or event.

During our review of the auction of the post’s property, we noted one incident where the billing
officer collected cash from the debtors, issued a manually general receipt for each transaction,
and then generated a combined BOC for all transactions from FORPost. The billing officer
subsequently provided the cash collected along with the BOC to the cashier. The cashier issued a
single consolidated general receipt. The total value of cash collected from the auction was
approximately $6,600.

Further, the post prepared BOCs after VAT refunds were collected, making it challenging to
determine the actual VAT refunds that post had claimed and the outstanding VAT refunds.
Allowing a billing officer to both collect cash and issue BOCs violates the segregation of duties
required by standards of internal control to reduce fraudulent transactions. Inadequate
segregation of duties between preparing the BOC and processing the refund increases the risk
that fraud and abuse of government funds may occur.

        We recommend:

        4. That the country director develop and implement adequate segregation of duties
           between billing and collection functions.

The post voided BOCs without proper approval from headquarters.

MS 777.24.1, “Billing and Collection Procedures, Debts and Claims,” states:

        If collection has not been made after the prescribed number of demands for payment, the claim will be
        referred by memorandum to the Field Director for approval of recommendation for compromise,
        suspension or termination of collection action. Compromise should only be solicited in those instances
        where it would be deemed feasible for amounts of less than $100. The claim file should contain
        documentation showing the debtor's name; the amount of the debt; the actions taken to effect collection and
        a brief summary justifying the recommendation. A copy of the memorandum will be sent to M/FM/A after
        recommendation is approved by the Field Director.




Final Audit Report: Peace Corps/Lesotho                                                                              3
           Such billings will be forwarded to PC/W addressed to Director, M/FM/A, together with the complete file
           containing all documentation along with a memorandum containing the Field Director’s recommendation.

           If the prescribed collection action, fails to effect collection, M/FM/A shall refer all pertinent documentation
           and make a recommendation for inviting compromise, suspension or termination of collection action in a
           covering memorandum, forwarded through the Office of the General Counsel, to the Associate Director for
           management.

Instead of maintaining an aggressive follow-up program for outstanding bills until collection or
other means of settlement are made, the CD and DMO voided 32 BOCs with an approximate
value of $4,600 USDE in February 2011, noting “Cashier Void - CD and AO decisions on old
bills from the Phone Company Personal Use of Cell Phone - June to September 2010.”

According to the post, the CD and DMO decided to void the BOCs because the erratic billing
resulted in months of personal phone charges being identified and billed to staff at the same time.
Further, post was unable to identify how many of the personal phone calls were related to the
death of a Volunteer in FY 2010. For example, staff may have permitted Volunteers to use their
phones to call home.

According to MS 777, the CD may sign approval using a memorandum of recommendation for
compromise to be sent to headquarters. Official termination must be approved by the Office of
General Counsel and the associate director for management. Neither CD nor DMO has the
authority to terminate collection efforts from current and former employees or PSCs.

           We recommend:

           5. That the director of management and operations re-issue bills of collection for
              previous bills of collection that were inappropriately voided or obtain appropriate
              waivers from the Peace Corps/Washington in accordance with the policy.

           6. That the director of management and operations reconcile the phone usage
              spreadsheets with the bill of collection log to ensure that all outstanding balance of
              personal phone usage are billed properly.


MEDICAL SUPPLIES

The post did not fully implement the agency’s medical supplies policy for receipting, tracking,
and inventorying.

The Peace Corps Manual section (MS) 734 3 states that:

           It is the policy of the Peace Corps to maintain effective controls and procedures that govern the
           procurement, receipt, storage, inventory, dispensation, and disposal of medical supplies and to adopt and
           implement special standards applicable to controlled substances.



3
    MS 734 was updated in December 2011 with implementing procedures in Medical Technical Guideline 240, October 2011.


Final Audit Report: Peace Corps/Lesotho                                                                                  4
         The MSIC must maintain an accurate and separate set of inventory records for all medical supply items that
         are specially designated or controlled substances.

         The Acceptance Point Clerk (APC) is appointed by the CD and is responsible for receiving all medical
         supplies at post and coordinating initial inventory and transfer to the Medical Office. The APC works with
         both the Medical Supply Inventory Control Clerk (MSICC) and the PCMO [Peace Corps Medical Officer]
         to ensure that medical supplies are properly delivered and inventoried. The APC must not be a member of
         the Medical Office staff, and cannot serve as the MSIC Clerk.

Over the last few years, the post experienced high turnover within the medical office. During FY
2011, the country director (CD) and PCMO began implementing the revised (November 26,
2008) 4 medical supplies policies and procedures. However, at the time of our audit we identified
several key controls that required strengthening including securing and storing of medical
supplies, maintaining accurate and complete medical supply records, separating duties, and
properly disposing of certain medical supplies.

Securing Medical Supplies. The post did not adequately secure the medical supply room and
restrict its accessibility. The post placed two printers, one copier and a shredder in the medical
supply room that could be accessed by staff not assigned to the medical unit and Volunteers
during business hours. Further, stored medical supplies were not well organized, making it
difficult to identify lost or otherwise unaccounted for supplies.




                                               Medical Supply Room

Separation of Duties. The post had neither formally designated an acceptance point clerk (APC)
to verify receipt of medical supplies nor a medical supply inventory control (MSIC) clerk to
maintain the medical inventory control log and to track the inventory status of all medical
supplies. On November 7, 2011, the CD formally appointed the APC and MSIC clerk. However,
the post appointed the medical secretary as the APC, which is an inadequate separation of duties
and does not comply with MS 734 because the medical secretary works within the medical office
and has a role in managing the supplies.

Medical Supply Forms and Inventories. The post did not maintain accurate and complete
inventory records and had not submitted the required records to the Office of Medical Services

4
  Peace Corps MS 734 was substantially revised in 2008. Key changes to this policy related to separation of duties in
the receipting, tracking, and inventorying of medical supplies. In December 2011 further revision was made to MS
734 adding Medical Technical Guideline 240 for further detailed implementing guidance.


Final Audit Report: Peace Corps/Lesotho                                                                            5
(OMS) for oversight. The post did not use most of the required medical supply forms and the
MSIC clerk did not maintain a separate medical supply inventory record. Instead, the medical
office maintained internal handwritten dispensing records, making it difficult to determine what
medical supplies were used during a given period; how many medical supplies were on hand;
and which supplies may be reaching expiration dates. Reliable medical supply inventory records
are critical in making accurate and cost-effective inventory ordering decisions. Further it greatly
assists in ensuring that the medical unit has the appropriate items and quantities of medical
supplies on hand to effectively treat Volunteers. Accurate and complete records also minimize
the potential for theft and misuse of medical supplies.

Disposal of Medical Supplies. The post did not dispose of expired drugs in a timely manner. We
reviewed two lists of expired medical supplies one dated January 1, 2011 and the other on July 8,
2011. We identified seven expired pharmaceuticals that had remained in the post’s medical
supply inventory for two to five years beyond their expiration date. When pharmaceuticals expire
it is important to dispose of them properly to avoid harm to patients.

        We recommend:

        7. That the post designate a secured room for storing medical supplies and restrict its
           access to designated staff only.

        8. That the post conduct a complete physical inventory of medical supplies in
           accordance with agency policy and update the inventory records accordingly.

        9. That the country director assign someone who is not assigned to the medical office as
           the acceptance point clerk to receive medical supplies delivered to the post.

        10. That the country director and the Peace Corps medical officer dispose of expired
            medical supplies in a timely manner in accordance with Peace Corps policy.


LEASES

The post informally exchanged leased housing with the U.S. Embassy without entering into a
new lease or subleasing for the U.S. Embassy property.

MS 733 states:

        Peace Corps does not rely on or award leases under the authority of other agencies, such as the Department
        of State and USAID, which have their own similar but distinctly different authorities.

        Contracting Officers (CO) may enter into subleases for specific properties with the Embassy if warranted
        by special circumstances. Such circumstances might include an offer of rent-free or reduced rent use of a
        property, limited property availability, or properties uniquely suited to Peace Corps’ mission. In these
        circumstances the CO must still determine that the lease is in the best interest of the government.




Final Audit Report: Peace Corps/Lesotho                                                                             6
When she arrived at the post in February 2010, the current CD moved into a U.S. Embassy
leased house instead of a Peace Corps leased house that had been used by her predecessor. The
CD emailed the Office of Acquisitions and Contract Management (OACM), requesting to switch
leased residences with the U.S. Embassy in Lesotho based on the proximity to the post and her
estimate that costs of the U.S. Embassy lease would be less. OACM advised the post to terminate
the lease for the Peace Corps house, conduct an independent market research, and, if it is the best
value to the Peace Corps, issue a new lease for the U.S. Embassy house.

The post prepared the required selection memorandum for the property but did not terminate the
leases nor enter into subleases. Instead, the CD proceeded to exchange residences with the U.S.
Embassy without properly terminating of the leases and entering into new agreements.
Exchanging leased houses without formal legal and administrative documentation bypasses
necessary controls and increases the risk that the post may violate contracting and financial
regulations imposed to minimize the potential for fraud, waste, and abuse of government
resources. However, we are not making a recommendation at this time because the post and
OACM have taken corrective action and properly executed a new lease.

The post did not document all of the lease information required to report to the headquarters
and the General Services Agency.

MS 733 procedures state:
        Posts must budget in USD [U.S. dollars], obligate in USD and then request payment in USD. Regardless of
        the currency in which the lease is paid, only one currency should be listed on the lease. Listing both
        currency types (local and USD) may result in Peace Corps having to pay the higher value of the two in the
        case of extreme exchange rate fluctuations.

        One copy of all (real property) leases and subleases (including a copy of the primary lease) must be
        submitted to the Office of Administrative Services (M/AS), Peace Corps/Washington, within 30 days after
        the execution of the lease, together with the following information needed to fulfill General Services

        An estimate of the square footage and/or acreage. If lease is for a building, indicate total square footage of
        the building (all floors). If the lease is for building(s) and ground, indicate total square footage and primary
        use of each building as well as size of ground.

        In the event a lease is terminated before its expiration date, notice must be sent to OACM and M/AS prior
        to the termination including the lease number, termination date and reason for the early termination.


We determined that the post listed both USD and local currency in its leases. The procedure
guide was issued on November 28, 2011; therefore the leases were signed before the
requirement. However, the post should list only local currency in new or renewal leases in the
future. Listing both currency types creates a risk that Peace Corps could potentially have to pay
higher rate due to currency exchange fluctuations.

Further, three out of four leases reviewed did not have the square footage and/or acreage and two
out of the four did not contain a signed certificate of acceptance. The square footage is reported
to the General Service Administration to account for all federal real property. The certificate of
acceptance indicates the exact date of occupancy and rental due date that both the post and lessor
mutually agreed on to minimize the risk of legal dispute.


Final Audit Report: Peace Corps/Lesotho                                                                                7
We also found that the post terminated one leased property without sending prior notice to
OACM including the lease number, termination date and reason for the early termination. The
post sent a termination notice to the lessor on January 19, 2011 and subsequently notified OACM
on January 28, 2011. Further, the post did not use MS 733 Termination Notice and Release of
Claim. Instead the post drafted a letter that was missing the following required elements:

               ·   Lease number
               ·   Lessor’s acknowledgement that the premise was returned by Peace Corps to the
                   Lessor
               ·   Statement that the lessor released and discharged the U.S. Government, and any
                   agency, agent, officers or employees thereof, from any and all liabilities,
                   obligations, claims, and demands of any kind or nature arising from any facts or
                   actions, whether now known or unknown, with respect to any of the facts and
                   circumstances associated with the lease or its termination by the parties.
           We Recommend:

           11. That the post notify the Office of Acquisitions and Contract Management prior to
               terminating leases and use the required termination notice and release of claim.

           12. That the director of management and operations include square footage, a signed
               certificate of acceptance and list only one currency in new and renewal leases.


VALUE ADDED TAX

The post could improve its VAT refund process by pursuing elimination of VAT at the point of
sale, strengthening controls over preparing the VAT refund requests, and requesting refunds
more frequently.

The country agreement between the United States and Lesotho signed on September 22, 1967
states:

           The Government of the Kingdom of Lesotho will exempt from all taxes, customs duties and other charges,
           all equipment and supplies introduced into or acquired in the Kingdom of Lesotho by the Government of
           the United States, or any contractor financed by it.

OFMH section 7.1.1, states, “Posts should pursue eliminating VAT (Value Added Tax) at Point
of Sale, so the refunds do not need to be processed….Posts should submit refund requests at least
quarterly.”

The registered vendors 5 in Lesotho add 14 percent VAT for purchases categorized as “other
supplies and services” (utility vendors add 5-percent). Beginning in FY 2007, the cashier
recorded details of VAT refund amounts and respective obligation numbers on an Excel

5
    Only registered vendors with the Revenue Authority in Lesotho are allowed to charge VAT.


Final Audit Report: Peace Corps/Lesotho                                                                         8
spreadsheet. Between FYs 2007-2011, post collected $172,978 in VAT refunds from the Lesotho
Revenue Authority (LRA).

The post could gain efficiency and reduce the effort of preparing VAT refunds by eliminating
VAT at the point of sale. Lesotho law grants exemptions for supplies to diplomatic missions. The
post had not fully evaluated the feasibility of eliminating VAT charges at point of sale. If the
post eliminated VAT charges before invoicing, it could reduce the amount of time and effort it
takes to prepare VAT refunds. For example, one vendor for security services accounted for
approximately 47 percent ($81,392 out of $172,978) of the total VAT refund collected by the
post during the period FYs 2007-2011. Further, eliminating VAT at the point of sale minimizes
the risk of fraud and unintentional errors.

The post’s process for identifying VAT charges and preparing the VAT refund requests did not
ensure all VAT charges were collected. We compared VAT collections with an estimate of VAT
charges for FYs 2007 and 2011. Based on our analysis, we estimate that the amount of potential
unclaimed VAT exceeded the amount of VAT collected by approximately $64,670. We
developed the following methodology for our analysis:

        a) We identified the actual VAT refunds collected between FYs 2007-2011 that had
           been paid by the post to the registered vendor names using the information post
           recorded in the VAT tracking worksheet.

        b) We combined the FYs 2007-2011 disbursements made to these registered vendors
           based on disbursements data provided by headquarters.

        c) We determined the potential amount of VAT that the post paid by applying the
           relevant VAT rate to the disbursements.

        d) We compared the amount of VAT collected by the post with the estimated VAT
           charged by the vendors to determine an approximate amount of VAT that was
           estimated to be unclaimed.

The estimated unclaimed amount could include refund claims rejected by LRA due to delays in
filing the refund application. According to the staff, the LRA had rejected invoices due to delays
in filing. However, the post did not document any discrepancies between amounts claimed and
amounts collected. During the audit the post began submitting VAT refund requests on a
monthly basis.

      We recommend:

      13. That the country director, in coordination with the U.S. Embassy, pursue eliminating
          value added tax at point of sale by obtaining a value added tax exempted permit.

      14. That the post establish a formal procedure to ensure that all expenditures subject to
          value added tax are claimed and collected from the Lesotho Revenue Authority in a
          timely manner.



Final Audit Report: Peace Corps/Lesotho                                                           9
      15. That the post compare the claimed value added tax amount to the actual amount
          collected and analyze the differences to determine whether post can provide additional
          details or improve its process to reduce the amount of rejected claims.


PROPERTY MANAGEMENT

The post did not maintain accurate and up-to-date inventory records.

“Standards for Internal Control in the Federal Government” (GAO/AIMD-00-21.3.1) issued by
the Government Accountability Office (hereafter, GAO Standards) state, “An agency must
establish physical control to secure and safeguard vulnerable assets.... Such assets should be
periodically counted and compared to control records.” The GAO Standards assert that
“…control activities help to ensure that all transactions are completely and accurately recorded.”
The GAO Standards also require the separation of duties, stating, “Key duties and
responsibilities need to be divided and segregated among different people to reduce the risk of
error or fraud.”

During our audit we attempted to locate property listed on the personal property inventory.
However, we determined that the inventory was not up-to-date and the status of assets was
incorrectly stated. The list did not contain accurate locations making it difficult to verify the
existence of property.

In October 2011, the post began implementing the Peace Corps’ new BarTrax software for
management of personal property records and inventory process. When this software is fully
implemented it is expected to enhance controls by automating property records and annual
inventory processes.

        We recommend:

        16. That the director of management and operations reconcile the physical inventory
            taken with the property inventory database and research any discrepancies.

The post did not maintain segregation of duties between the staff who are purchasing
property, updating the database, and taking physical inventory.

The Peace Corps’ Personal Property Management Handbook requires posts to separate
responsibilities for purchasing property, maintaining the property database, and conducting the
physical inventory of property. The handbook states:
        The one requirement is that these duties must be assigned to separate people, in order to ensure separation
        of duties and appropriate internal controls. If the same person is purchasing an item, entering it into the
        database, and inventorying it, there are increased chances of both mistakes and actual fraud. Having
        multiple people involved in the life of the asset reduce the opportunities for mistakes or fraud.




Final Audit Report: Peace Corps/Lesotho                                                                           10
We determined that the same individual entered purchased property into the database and
conducted the physical inventory. Separating the duties regarding property management is an
important control to help prevent waste, fraud, and abuse. Once the post has reassigned the
responsibilities and fully implemented the new BarTrax software, the property database should
facilitate helping enforce the separation of duties through defined user roles.

        We recommend:

        17. The country director assign separate individuals to conduct the physical inventory and
            maintain the records documenting the property database.


IMPREST FUNDS MANAGEMENT

Staff did not clear their travel vouchers in a timely manner.

OFMH 57.60, states, “It is the responsibility of the traveler to personally prepare the travel
voucher within 5 days of completion of the travel. The administrative unit reviews and approves
the travel voucher.” The staff did not consistently submit their travel vouchers in a timely
manner. Our review of seven sampled travel vouchers between November 2010 and September
2011 disclosed that none of the seven had been completed in a timely manner. The delays
spanned between seven and 60 days with average delay of 21 days. Further, we found three out
of the seven travel authorizations were not signed by the traveler and the approving official.

Clearing interim advances in a timely manner ensures a prompt return of unused funds and helps
to minimize imprest fund cash required to be on hand.

        We recommend:

        18. That the director of management and operations remind post staff of the requirement
            to submit their travel vouchers within five working days and monitor the status to
            ensure that advances, if any, are cleared in a timely manner.

The cashier did not change the combination to the imprest fund safe annually.

MS 760.5.2, states:

        The cashier must personally set the combination to the safe.... provide a copy of the combination in a sealed
        envelope to the Embassy RSO. The combination should be changed at least annually, whenever there is a
        change in cashiers, or whenever the combination becomes known to a person other than the cashier.

The cashier did not change the combination annually and did not provide a copy of the
combination in a sealed envelope to the U.S. Embassy regional security officer. Routinely
changing the combination reduces the risk of unauthorized access to the cash and associated
potential for fraud and abuse.




Final Audit Report: Peace Corps/Lesotho                                                                           11
        We recommend:

        19. That the cashier change the combination and provide a copy of the combination in a
            sealed envelope to the U.S. Embassy regional security officer.

The cashier did not adequately control access to the cashier cage.

The cashier’s cage was not always secured during business hours. We observed that the cashier
frequently left the secured area to pick up printed general receipts or make photocopies on the
copy machine outside of her secured room without ensuring the door was closed and locked.
This could potentially compromise the safeguarding of valuable documents and cash.

        We recommend:

        20. That the director of management and operations install a printer inside the cashier
            cage so the cashier doesn’t leave her cage frequently.


FISCAL CODING MISCLASSIFICATION

The post misclassified $38,471 expenditures to inaccurate object class codes.

Fiscal Code 2012 states:
        The Object Class Code (OCC) is used to classify expenditures according to types of goods and services,
        such as personnel, travel, rent, and supplies. In Odyssey, Peace Corps has established its object class codes
        to comply with the Office of Management and Budget (OMB) reporting requirements.

Based on our analysis of disbursements for FY 2009 - FY 2011, we identified that the post
misclassified expenditures, specifically:

    ·   The post inappropriately allocated $16,857 in conference lodging costs to staff and
        Volunteer travel instead of conference travel costs. The Peace Corps’ Fiscal Coding
        Handbook explicitly states that conference travel costs includes “all travel costs
        associated with staff conferences including travel, per diem, and allowances.

    ·   The post misclassified communication expenses of $6,895 paid to a phone carrier as
        computer equipment and software.

    ·   The post misclassified $14,719 paid to auto service vendor as supplies other than those
        used for motor and vehicle.

It is crucial for the post to use the accurate object class codes in the financial system to control
use of resources according to the purposes as provided for in the budget authority. Ensuring the
accuracy and reliability of financial information is necessary to make informed decisions about
agency resources.



Final Audit Report: Peace Corps/Lesotho                                                                            12
        We recommend:

        21. That the director of management and operation establish and enforce formal procedures
            to ensure that all disbursements are allocated to appropriate object class codes.


GRANT MANAGEMENT

The post did not have an effective process to track Peace Corps Partnership Program (PCPP)
grant projects.

MS 720, 5.1.10, states:

         The Coordinator will monitor the status of the project and coordinate with the PCV during implementation.
         The PCV shall inform the Coordinator of any delays, problems, or other difficulties that could significantly
         alter the project's schedule or jeopardize its successful completion.

The post did not have a designated PCPP coordinator. Instead, the associate Peace Corps
directors helped Volunteers identify, prepare, monitor, and budget the projects. The director of
management and operations maintained the projects files. Based on our review of PCPP project
files, we determined that:

    ·    The projects files were not well organized.
    ·    The post had no procedures in place to track the status of the projects.
    ·    The post did not reconcile the budgeted cost with the actual cost for each project.

        We recommend:

        22. That the post establish formal procedures to track Peace Corps Partnership Program
            projects and to reconcile the actual expenditure with the budgeted expenditures.




Final Audit Report: Peace Corps/Lesotho                                                                           13
                               OTHER AREAS OF CONCERN
COMMUNICATION BETWEEN THE POST AND HEADQUARTERS

Although posts are permitted to maintain leases in anticipation of U.S. staff, we believe that
better communication between post and headquarters could have helped the post make informed
decisions on leasing and furnishing a residence designated for a U.S. PCMO. Between
September 16 and October 7, 2010, the post purchased and received new furniture of $20,162 in
preparation for setting up a newly-hired U.S. PCMO’s residence. However, on September 14,
2010, the selected U.S. PCMO informed OMS that she decided not take the position. The post
proceeded to purchase furniture because OMS was still considering hiring a U.S. PCMO. By
November 2010, OMS decided to hire a third-country national PCMO instead who was neither
entitled to a residence nor furniture.

Subsequently, the region instructed the post to use some of the furniture in other government-
leased residences. As a result, the post transferred part of the furniture to other residences and the
remaining part was kept unused in storage room. The post also discussed how to handle the
residential lease with region. Finally, in January 2011, the post officially terminated the lease.
We believe that better communication between OMS, region, and the post might have prevented
unnecessary purchases for furniture and enabled post to terminate the lease sooner.




Final Audit Report: Peace Corps/Lesotho                                                            14
                             QUESTIONED COSTS AND
                          FUNDS TO BE PUT TO BETTER USE
We did not identify any questioned costs. We identified $67,044 in funds to be put to better use
during the course of the audit. Funds to be put to better use includes funds that could be used
more efficiently if management took actions to implement and complete the recommendations.

Although the post will not be able to recoup the value added tax on the FY 2007 – 2011
expenditures, we believe that implementing our recommendations will help post recognize
similar savings in the future.

                                    Funds to be Put to Better Use

    Recommendation
                                          Description                              Amount
        number
          5        Bills of Collection inappropriately voided                        $ 2,374
                   Estimated amount of potential value added tax refunds
          13                                                                         $64,670
                   unclaimed from FY 2007 – 2011




Final Audit Report: Peace Corps/Lesotho                                                        15
                              LIST OF RECOMMENDATIONS
We recommend:

      1. That the country director establish and enforce the “limited personal use” policy for all
         employees in compliance with Peace Corps Manual section 547.

      2. That the collection officer initiate collection for all past due bills of collection and send
         routine reminders for outstanding amounts.

      3. That the country director discontinue the practice of issuing multiple bills of collection
         to staff for the purpose of accepting installment payments and communicate this to staff
         through a memorandum or update d standard operating procedure.

      4. That the country director develop and implement adequate segregation of duties
         between billing and collection functions.

      5. That the director of management and operations re-issue bills of collection for previous
         bills of collection that were inappropriately voided or obtain appropriate waivers from
         the Peace Corps/Washington in accordance with the policy.

      6. That the director of management and operations reconcile the phone usage spreadsheets
         with the bill of collection log to ensure that all outstanding balance of personal phone
         usage are billed properly.

      7. That the post designate a secured room for storing medical supplies and restrict its
         access to designated staff only.

      8. That the post conduct a complete physical inventory of medical supplies in accordance
         with agency policy and update the inventory records accordingly.

      9. That the country director assign someone who is not assigned to the medical office as
         the acceptance point clerk to receive medical supplies delivered to the post.

      10. That the country director and the Peace Corps medical officer dispose of expired
          medical supplies in a timely manner in accordance with Peace Corps policy.

      11. That the post notify the Office of Acquisitions and Contract Management prior to
          terminating leases and use the required termination notice and release of claim.

      12. That the director of management and operations include square footage, a signed
          certificate of acceptance and list only one currency in new and renewal leases.

      13. That the country director, in coordination with the U.S. Embassy, pursue eliminating
          value added tax at point of sale by obtaining a value added tax exempted permit.


Final Audit Report: Peace Corps/Lesotho                                                             16
      14. That the post establish a formal procedure to ensure that all expenditures subject to
          value added tax are claimed and collected from the Lesotho Revenue Authority in a
          timely manner.

      15. That the post compare the claimed value added tax amount to the actual amount
          reimbursed and analyze the differences to determine whether post can provide
          additional details or improve its process to reduce the amount of rejected claims.

      16. That the director of management and operations reconcile the physical inventory taken
          with the property inventory database and research any discrepancies.

      17. That the country director assign separate individuals to conduct the physical inventory
          and maintain the records documenting the property database.

      18. That the director of management and operations remind post staff of the requirement to
          submit their travel vouchers within five working days and monitor the status to ensure
          that advances, if any, are cleared in a timely manner.

      19. That the cashier change the combination and provide a copy of the combination in a
          sealed envelope to the U.S. Embassy regional security officer.

      20. That the director of management and operations install a printer inside the cashier cage
          so the cashier doesn’t leave her cage frequently.

      21. That the director of management and operation establish and enforce formal procedures
          to ensure that all disbursements are allocated to appropriate object class codes.

      22. That the post establish formal procedures to track Peace Corps Partnership Program
          projects and to reconcile the actual expenditure with the budgeted expenditures.




Final Audit Report: Peace Corps/Lesotho                                                           17
APPENDIX A

                   OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective in auditing overseas posts is to determine whether the financial and administrative
operations are functioning effectively and comply with Peace Corps policies and federal
regulations. Our audit conclusions are based on information from three sources: (1) document
and data analysis, (2) interviews, and (3) direct observation. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Our audit covered fiscal years 2009, 2010 and 2011, except for the BOCs and VAT. Based on
our professional judgment, we expanded our audit scope of VAT and BOCs for an additional two
years (FYs 2007 and 2008.) We also contacted the LRA to obtain a statement of VAT payments
since 2007. We compared the post’s records with the LRA’s statement to assess the
reasonableness of the VAT claimed and collected. We performed analysis of VAT refunds to
quantify the potential unclaimed VAT.

While at the post, we interviewed key staff including the CD, the DMO, administrative support
staff, and the PCMO. A number of local staff requested that the post initiate a training and
development program to strengthen their current job skills and to learn new skills. As part of the
audit process, we briefed the CD and DMO. At headquarters, we conducted a general briefing for
regional staff.

We relied on computer-processed data from the post’s accounting system in collaboration with
documentation such as invoices, contracts, and receipts. While we did not test the system’s
controls, we believe the information generated by the system and used by us was sufficiently
reliable for our audit objective.

Our audit criteria were derived from the following sources: federal regulations, the Peace Corps
Manual, the Overseas Financial Management Handbook and current Peace Corps policies.




Final Audit Report: Peace Corps/Lesotho                                                         18
APPENDIX B

                                          LIST OF ACRONYMS
   APC                            Acceptance Point Clerk
   AO                             Administrative Officer
   BOC                            Bill of Collection
   CD                             Country Director
   CO                             Contracting Officer
   DMO                            Director of Management and Operations
   FY                             Fiscal Year
   GAO                            Government Accountability Office
   LRA                            Lesotho Revenue Authority
   MS                             Peace Corps Manual Section
   MSIC                           Medical Supply Inventory Control
   OACM                           Office of Acquisitions and Contract Management
   OFMH                           Overseas Financial Management Handbook
   OIG                            Office of Inspector General
   OMB                            Office of Management and Budget
   OMS                            Office of Medical Service
   PCMO                           Peace Corps Medical Officer
   PCPP                           Peace Corps Partnership Program
   PSC                            Personal Services Contractor
   USD                            U.S. Dollar
   USDE                           U.S. Dollar equivalent
   VAT                            Value Added Tax




Final Audit Report: Peace Corps/Lesotho                                            19
APPENDIX C

  MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT




Final Audit Report: Peace Corps/Lesotho         20
APPENDIX C




Final Audit Report: Peace Corps/Lesotho   21
APPENDIX C




Final Audit Report: Peace Corps/Lesotho   22
APPENDIX C




Final Audit Report: Peace Corps/Lesotho   23
APPENDIX C




Final Audit Report: Peace Corps/Lesotho   24
APPENDIX C




Final Audit Report: Peace Corps/Lesotho   25
APPENDIX C




Final Audit Report: Peace Corps/Lesotho   26
APPENDIX C




Final Audit Report: Peace Corps/Lesotho   27
APPENDIX C




Final Audit Report: Peace Corps/Lesotho   28
APPENDIX C




Final Audit Report: Peace Corps/Lesotho   29
APPENDIX D

                                          OIG COMMENTS
Management concurred with all 22 the recommendations. We closed 20 recommendations based
on evidence of corrective actions that address the recommendations. The following two
recommendations (numbers 12 and 13) will remain open pending confirmation from the chief
compliance officer that the documentation below is received through the TeamCentral
recommendation tracking system.

In their response, management described actions it is taking or intends to take to address the
issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the region or post has taken these actions, nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.




Final Audit Report: Peace Corps/Lesotho                                                            30
APPENDIX E

                   AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION                          Waheed Nasser, Senior Auditor performed the audit of Peace
                                          Corps/Lesotho.




                                          Bradley Grubb
                                          Assistant Inspector General for Audit



OIG CONTACT                               If you wish to comment on the quality or usefulness of this
                                          report to help us strengthen our product, please email Assistant
                                          Inspector General for Audit Bradley Grubb at
                                          bgrubb@peacecorps.gov, or call him at (202) 692-2914.




Final Audit Report: Peace Corps/Lesotho                                                                 31
Help Promote the Integrity, Efficiency, and
     Effectiveness of the Peace Corps
Anyone knowing of wasteful practices, abuse, mismanagement,
fraud, or unlawful activity involving Peace Corps programs or
personnel should call or write the Office of Inspector General.
    Reports or complaints can also be made anonymously.




                      Contact OIG

                                Hotline:
       U.S./International:       202.692.2915
       Toll-Free (U.S. only):    800.233.5874

       Email:                    OIG@peacecorps.gov
       Web Form:                 www.peacecorps.gov/OIG/ContactUs

       Mail:                     Peace Corps Office of Inspector General
                                 P.O. Box 57129
                                 Washington, D.C. 20037-7129

                   Main Office: 202.692.2900
